No. 21-231

In The Supreme Court of The United States
Julie Ellen Wartluft, fka Julie Ellen Bartels, et al.,
v.
The Milton Hershey School, et al.
AFFIDAVIT OF SERVICE
I, Denise Dulong, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct.

That, on this, the 16th day of

September, 2021, I filed the foregoing with the United States Supreme Court
electronically and forty (40) paper copies via UPS Ground Transportation. I further
certify that the foregoing was served via electronic mail and three (3) copies of the
same, via UPS Ground Transportation, to the following:
John W. Schmehl, Esquire
DILWORTH PAXSON LLP
1500 Market Street
Suite 3500E
Philadelphia, PA 19102
(215) 575-7200
jschmehl@dilworthlaw.com

Jarad W. Handelman, Esquire
Market Square Plaza 1
7 North Second Street
Suite 1420
Harrisburg, PA 17101
(717) 307-2601
jwh@elliottgreenleaf.com

Counsel for Petitioners

Counsel for Respondents
Kyle M. Elliott, Esquire
Christine M. Wechsler, Esquire
ELLIOTT GREENLEAF, P.C.
925 Harvest Drive, Suite 300
Blue Bell, PA 19422
(215) 977-1000
kme@elliottgreenleaf.com
CWR@elliottgreenleaf.com
Counsel for Respondents

Denise Dulong
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
denise@gibsonmoore.net

For:
Joseph H. Jones, Jr.
Counsel of Record
WILLIAMSON, FRIEDBERG &
JONES, LLC
Ten Westwood Road
Pottsville, PA 1790
Tel: 570-622-5933
jjonesjr@wfjlaw.net
Counsel for Amicus Curiae
Protect The Hersheys’ Children, Inc.

Signed and subscribed before me on this the 16th day of September, 2021.

